FILED
JUL 2 0 2021

IN THE

OFFICE OF THE CLERK
SUPREME COURT; II R

SUPREME COURT OF THE UNITED STATES

In ReJ fiXX

Afgkelessij frose — PETITIONER
(Your Name)
vs.
— RESPONDENT(S)

ON PETITION FOR A WRIT OF

HABEAS

TO

_____ Fourth Cucul} Court of Appeals_______________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Ra^ez MaZ/Jesst . & 1/279jlC
(Your Name)
ReJ Dnton 6i*te prison
(Address)
\o$oo H' *3o-cK Rose

Poon/’j j MR

9

(City, State, Zip Code)

(Phone Number)

f P.o, &<?X 97o

QUESTION(S) PRESENTED

/- 771 e /cjJfr Federal Courts Jef rived tii5 Petitioner of his congressional right to one
Full round oF his initial Federal habeas review ly dismissing claims oF ineFFective.
trial counsel ^Without Condffctin

16

any merit Jeterminationj, and diis missed Rule (id)

(b) (6) by abuse of disced}ion in violation cF Supreme court ruling that i Conviction
obtained by Racial Factor is tnpAtt Extraordinary 60 (h)(6) Motion that must
be aranted" BucK, 137 S>Ci, 7S? at 772

f>a^es %S,6 4&

6

X- Racist Jrunk trial attorney bragged h Petit loner/that i 1 JiJ not object to tie
introduction oF Fraudulent RACIAL e-mail (com* Ex*if) to tit Jury thaP says you
are Lebanese Arab who takes Lebanese ierrorests to tinner, and Learning to Fly
plains in Gktohoma to Make sure ike Jury Convicted your 6/till) NIG&BR

fyes

ASS

3- Racist Jrunk attorney also braced to Petitioner

V9?5

1 intentionaty withheld all

this impeaching material Facts because it Mould have impeached Qd)witnesses and
changed tie outcome of the trial, 'I was never going to

Let a

sam)

/Jigger

ARAB Like you walk Free* this is why I didn't subpoena any oF your
witnesses''

■ nes

0)

6

7

LIST OF PARTIES

[A^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

fii)

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

4.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

V

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

?

INDEX TO APPENDICES
APPENDIX A Titc'isien oF C«o rf cf
APPENDIX B

Rule 60 (&>)(&') /

^ crJtf cF Etjerfil Jiifruf Jismissi^j Rult 60(h)(i) <j&(J)(33

APPENDIX C Orier oF Heeft hnyin^ re bearing Efi &nnc
uiihevt Merli Jtierntnfiiri>n
APPENDIX D Oflnton oF inlfofll haltAS JfSM/ssinj Claims l(ft)
APPENDIX E Decision t>F inllul

Apfea/

APPENDIX F

Oil)

U/VjW/ writ JetervlwiJon

TABLE OF AUTHORITIES CITED

CASES
BucK V. dfiv'lS, 137 S.C+. 7S? y

3>&vls v. flhjk'A, His u.£.3c&,

PAGE NUMBER
772 fabli)

3is (my)-

U.S. V. CfonSc, VLb U.£.6y2, &i £S? (l?2V).

STATUTES AND RULES

OTHER

(iV)

H.S.l d 8

7

.7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF

HABEAS

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
[t/f is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[f-T has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or, "
[ ] is unpublished.
1.

JURISDICTION

[l^Yor cases from federal courts:
The date on which the United States Court of Appeals decided my case
Me.
JS . JoJ.1
was

f

[ ] No petition for rehearing was timely filed in my case.
[Pf.A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: __ Jt/ly
lOrll—
order denying rehearing appears at Appendix C
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
to and including_______
(date) on
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix !______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)in
(date) on
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

SlXtt

flwtnJne ni ConAiiuiicnal VidIai/onS

/
t

FouffeCnH) AmUndrifni Co/iii/fuifanfil Vioi/xiibni
\

\

\
\

1

STATEMENT OF THE CASE

Ground 1. Proves

iniii/tl Federal iiattAi Claims I (B) (ix) oF ineffective Racist

trial counsel For Falling to object to micoJocilfiei oF RfiCiPL Fraudulent e-mad
AS (com. EX. 61) attachedj

Mas

dismissed |k//7/?0*//’ Conducting any Merit determination^

And deprived this Petitioner oF his Congressional rJfjhi to one Full round oF Federal
hahexs review and dismissed Rule bo (h)(6) in Vialation oF iris Supreme Court
ruling in BucK, 137 S.Ct. at 778, that i"Conviction bitrimed by Racial Factor is
]»Fact Extraordinary 60 (h) (6) Motion that must he granted"
fiFtcc trial ended, Racist trial cams et traced to Petitioner u)h/Je in Ht
holding cei! i
"l did not obiect to He Fraudulent Racial e-Mail Ccon.Bx.6l)
introduced to the Jury that says x you are Lebanese Brat Mho
takes Lebanese terrorists to dinner / and Learin ana to Fly Plains
in OkioboMa ' to MalCe Sure He Jury Convicted your^SBtJS NIGGER
ASS"®
'
TP e Front cover oF this e-Malt Says ' Please read it is only tuio mJ halFfag es
He Racist prosecution introduced 5 fa.Qts , which maries it sc Obvious Ha! they
added J. !ri extra fx^es Fabricated y Fraudulent / RRc/pf^anJ prejudicial Material
to He J\i<y> and they Made Os) copies For each one oF the Jury h take and
read * in the Jury's room and come back? when they are done.
"Orieyt and I'm flrinfl to show you Mbatis Comrionuitnith EX. 6!
(Tr, March io / J.oo6 t P, //Vo)

(D * Relying

on Race to impose a criminal Sanction fotsons public ConFidence
in the Judicial process / it thus [Injures Not Just He JeFendanJJ hut'lhe Lau)
as an institution r - -. He Community attache / and He democratic ideal
reFiec+ed i'a +ke process oF our courts " Bucrii Id. at 778.

H

After the Jurors returned From reading this RACIAL , Fcaudulent c£ prejvdicia I
e-Mait (com. Ex. 6/) j they all roe re Looking at petitioner Like they Wanted do KID him
Fur the next 6 days oF triad, and one oF Me Jurors yelled i
*1 will kill this F-ing Arab ''
Trio.) Attorney to/d Petitioner that its Someone From the hack oF Courtroom, when
Petitionee kneus its one of Me Jurors $ nothing u)as done about it and swept Under
He rug, and trio! Judge to/J Court reporter !„ strike that from ike records,
Then, Racist prosecution made Racial Fraudulent closing argument it Keep He Jury
Prejudiced and angry, that i
' Rt Said in Itere that he has to take Lehxnese terrorists to
dinner and spends A3bo,ce> an them,/ (Tr- March is, jlooS, P. D6X)
Petitioner told Aacist trial attorney So Many times that he should object to D/s
Fraudulent e-Mail (coM.EX.6i) because he never seen this S pages e-Mai! and never
wrote, this Racial e-Mail ahd never Said he takes Lebanese terrorists ft, dinner,
and never said he is teaching to Fly Plains in OKUhoma as the Fabricated Racial
€ /’rejudicinf Z-Mait Says and introduce! as (com. EX.hi') - Tru) ottomey kept spying
its to halt / 1 Cannot olj^cf.
Petitioners Family art all Christians Living in the U>S . i an d Petitioner has been
messianic TeuJisK For over 3S years, therefore, it is IMPosiBLE to be close to any
terrorists uitbout Lein

mur dered d beheaded, Obviously !

For this RACIAL , Fabricated <£ prejudicial e-Mail to be introducedasCcom.Ex £t)
that Says Petitioner is a "Lebanese Arab*

"he takes Lebanese terrorists to dinner*

''/ie is Learning to Fly plains at Dklohcwia" is very ffejudic/al, Fraudulent
Factor Conviction*According to U.S.Suj’rcnd Court in Buck,id at 17A»

5

Racial

6rountj Ai Proves Hwd imfi'A.) Feitcal habeas CIaims l(B) oF tneFFect'iVt Racist trial
Counsel Was dismissed |&J///a£// Conducting

y Mtrli Jeterminatidnj and Jt^nVed this
an

Petitioner oF his congressionat right to on € Full round oF Federal habeas reV/eiu and
dismissed rule 60 (h)U) in violal ion of this Supreme Court ruling in Buck’/137 5. Ci.
at 778 j that i ^Conviction obtained by Racial Factor is inFncf Bxtfaofdmary 8oQs)(c)
Motion that Must It granted f
flfter defendant Was convicted oF J. Counts Murder <£> sentenced on March 77, JlccX,
trial attorney Reed Came io defendants hoiking Ctil before be u)as taken to Jail * an J
attorney Reed showed defendant all the fd/njf3 caching evide nee he intenticnaly
withheld From the trial Ctet.7,8, Ijl,I3

8S8) attachedt and alt erney

fited braced i

"l in'icnliinAly withheld all this Impeaching evidence because it would
have impeached lo witnesses and changed +kd outcome oF the tda\J
' 1 was never goin^j to Ldf a. S fifth P/I&6BR ARAB like you Walk Free
this is why I didn't subpoena any oF your witnesses" attorney Reed
bragged/ then he walked away with bis smelly alcohol breath.
TFis tMfcaching evidence CPih 7, hlhlZ HSis') proves that Petitioner's, wife Eiise did
inFact reported Complaints of sexual harassment* , Sexual assa oits d rapt to Four witnesses
And to the Police also i 0) To psychologist fione HunterCfet.T)/(A) To U,S> Alavy Captain Paul
HaWs(Pet,U)/(3)To attorney Josephine Clay $ Jack Ferebee CPetd) i(t) Pet, 8lS Proves
that the Police received (fet, I $ Ai) the videotape and Affidavit From £Use in the Mai)
as a j"coMplaints oF Sexual harass meats / sexual assaults dt Capej against fluincy Brown
uiho raped € Murdered Eiise / and the Police lied and said no they never received any
Complaints From Eiise. See alsofPet, I € At attached. TTis is why Peht tfj. were not
Allowed at trial i because trial counsel withheld Pet, iAi proving the Polite received
Pel, I 0>£

d Lied about not receiving any complaints From Eiise.

hurin^ the trial, while to witnesses CsMMitted perjury that i
"E-Wsc never compiained of sexual harassments //, Tr. J.9S , 333,3SJL-S3,
3U,37i j3$J.-&3 ,39! , H36 ,
•
DeFe^Jan'l' kept- asking trial attorney Sc Man\y tin es to introduce ih£ tropeaching
Material Facts which previous attorney Miller hud showed defendant they tad / an J

bo

'impeach all lb witnesses , abovei who CoM/nltted perjury / Rads t counsel Kept Lyin^
-that Here art no meeac hlng evidence h introduce and impeach Ike abort t^ilntssts.
Even when Petitioner u3/is Lei«^ lenidJ to tallFy about Ellse Made CoMp/altt.i oF
SexoAI barassnents

Cafe Ip trial JuJ^t wild ^SpaciPicobj asked For Hu's iMoeachln

16

Material FachJ / U)hen attorney Reed Made Pel/honer a Liar to the Jury by intentional/
withholding all this impeaching MateriaI Facts (let 7,8,11,12 tfSJs) even When Ha hodAt askedi

'5

Trial TvJae i^She (Elbe) allegedly made complaints oF rapt, we haven't
^ had any evidence to show fha! she M*d it ,f CTr, /Hzk)
Attorney Reed <fi Prosecution, hath, hid not disclose tl/s evidence io the Judge when he had
Sfic'iFicaly asked -Hew For this evidence, Obviously proving Conspiracy l
Petitioner

was

inhniunaly denied eFFective cross-examination by RACIST trial

attorney^ " which would be

Cons htutiona! Violation oF He FIRST-MAGNITUDE and

no amount of uiant oF yrejudiice. woo id core it'* U.S, It Cronic , id, at £59.
US, V. Cronic, HU, U.S, CHi at CS? Citin')
(D "Similarly / iF counsel entirely Fa lies to suhiect He prosecutions cast ic meaningful
adversarial iestlnfl, Hen there has been a denial oF Sixth Amendment rights that makes
the adversary process ilstIF presumptively unreliable, do spedFicshowing eF preiudlct
Was required in Davis V. Alaska , HIS U,S- 3tl, at 3/S (it 7H) because fetiiioner had
bttn 'denied the
oF effective cross-examination*which xWould be Constitutional
Violation oF the FIRST- MMltlTVDE and no Amount oF ShoWina of want cF
Prejudice would cure It'** Id, at 3I& ,

1

T*

REASONS FOR GRANTING THE PETITION
According Id IhS, Supreme Court in Buck \f. davls / 137 5 = Cf. 7St at 778 OloI7')
*Co/>\rkifcn obtained by RACIAL fader is infact Extraordinary 6o(Q(t>)
/notion that Mud be granted * Buck'/ lJ. at 778 .

Both, Racist trial attorney and Racist fro secu Hon Conspired ah I intro Ji/ced
A RACIAL Fraudulent prejudicial e-nnall to tke Jury as (com* FX.ihatt*ded\ Hat
Say*,

Peiitioner is i
lcl)Ar>ese Arab '/and
''ffe takes Lebanese ierror/sts tt> Jinnee

„
and

* He Is Learning horn to Fly plains at okLa tom a '
AFttr He Jurors returned From reading His RACIA?Fraudulent prejudicial
e-maili Hey all uiere Looking at Petitioner Like Hey uianhd to kill hlM For tie
next L daps oF trial/ and one oF iki Jurors yettedl
'' I uill kill this F-ing AraL "
TFen, Racist frosecutf on Made Racial dosing argument to keep He Jury
prejudiced and angry / that %
* He said in here that he has to take LeLanese terrorists to dinner
and spends Jt3oc,e° on Hem ''
(Tr, March iS/Jno6 / P,/SdJ)

See More an fage H sA 5 Ground 1
® ''Relying on Race to impose a criminal Sanction' fotsOns fob lie conFiJence*
in the Judicial process / it thus jJnjures Not 4usf Me JeFcnJantj, buf V/e Laui
as an institution'/ - . - He community at Large /
the Jcmocraise ideal
reflected in He processes oF our Courts * Buck, id, at 778.

I

No.
1 aI the
SUPREME COURT

of the united states

In Re* Rdlb Ra mez Makdessi, Pro sc - PETITIONER
Rule JLO'I

AnJ

Jlo. H For ExttAor^l nary eJnt oF Habeas

Rule Ac, I l Jlis Petltio n tu>ill be /» -the

ai'J

cF the Courts appe/latt JurisJicfiion

Hat

exceptional c/VooMS+Ahces id Arran} ike exercise oF this courts discretionary powers ,
because adequate relief Cannot te obtained in Any other Form or From any after Court,
because !
Rule atO.V t TFe Looser Federal Courts deprived this petitioner oF bis initial Federal habeas
revieui by JisMissin^ claims 1(b) cF ineffective friat Counsel jojilbout Conducting any
Merit JeterMinationj and dismissed Rule (0(h)(6) and ah used discretion in Violation cF
Supreme Court rulty in Buck V. Davis, 137 S<Cf. 7St at 77% (Ad?)

Conviction obtained

ky RACIAL Factor is inFact Extraordinary (0 (k)(b) Motion that atust be granted Bucket 77%.
Ulben Jruni( Racist +finl attorney braced to Petitioner in Ike holding cell after the
trio I ended, that i
"l did not object it the Fraudulent Racist t-Mail CcoM.Ex.(0introduced to
the Jury that Says 'you are Lebanese Arab alhc fakes Lebanese terrorists
to dinner 1 and Le&rninato Fly plains at OKhhoMA* to Make sure the.
Jury Convicted four TSAHD NIFGER fiSS"
According to ibis Honorable Supreme Court ruling! v' TFis Conviction obtained by Racial
Factor is inFact' EXlfaerJlnAry writ Hat Mi/5t \»e ^Canhd^ Buck, at 778Respectfully Submitted
/2,>2o<U
Adib Ramiz PJafCdesst,HUi79JLC

*

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

aM aIQ^a a.

t

fhlli RaImCS HfiKdasl

Date:

July

)3

j

jqju

